                                        NAnONAL SCIENCE FOUNDAnON
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESnGA nONS

                                  CLOSEOlTT MEMORANDUM

TO: AlGI        File Number: 1-97110057                                                     4/9/02

Subject: _                                                                                     Page 1 of 1


      Our office investigated possible false statements by Professor                         and referred the
      case to the Civil Section, DOJ in Boston. The AUSA,                   declined the case on 31 October
      2001. Following a review of all the case documents, our office concludbd that there was no
      administrative remedy applicable to the actions of _ , specifiblly              I.
                                                                                            that
      exaggerated statements in reports to NSF and failed to make disclosure of financial interests.
                                                                                                     !!I
      _      sent NSF -OIG a letter dated 4 April 2002 agreeing to fully disclose his ftnancial interest to his
      university, and to provide truthful, complete and accurate information in all fube proposals, reports
      and written representations submitted to NSF.                                    I,
                                                                                        i
      _          certification serves, as an assurance that federal interests related to his research will be
      safeguarded in the future. This case is closed.                                 II
                                                                                        i




                 Prepared by:                       Cleared by:



   Name:



 Signature &
    date:
                    - -                                                  •
